No. 20-1570

In the Supreme Court of the United States
HRB TAX GROUP, INC.; HRB DIGITAL LLC,
Petitioners,
v.
DEREK SNARR,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
REPLY BRIEF FOR PETITIONERS
CAROL A. HOGAN
Jones Day
77 W. Wacker, #3500
Chicago, IL 60601
(312) 269-4241

ARCHIS A. PARASHARAMI
Counsel of Record
DANIEL E. JONES
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
aparasharami@
mayerbrown.com

Counsel for Petitioners

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES...................................... ii
A. The Decision Below Defies This
Court’s FAA Precedents. ............................... 4
B. The Issue Is Tremendously Important. ........ 8
C. Snarr’s Asserted Vehicle Problems Are
Illusory. ........................................................ 10
CONCLUSION ......................................................... 13

ii
TABLE OF AUTHORITIES
Page(s)
Cases
American Express Co. v. Italian Colors
Restaurant,
570 U.S. 228 (2013) ................................................ 6
AT&T Mobility LLC v. Concepcion,
563 U.S. 333 (2011) ...................................... passim
Blair v. Rent-A-Center, Inc.,
928 F.3d 819 (9th Cir. 2019) .................................. 1
Department of Transp. v. Association of
Am. R.R.s,
575 U.S. 43 (2015) .................................................. 4
Epic Sys. Corp. v. Lewis,
138 S. Ct. 1621 (2018) .................................. passim
Kindred Nursing Ctrs. Ltd. P’Ship v.
Clark,
137 S. Ct. 1421 (2017) .......................................... 10
Lamps Plus, Inc. v. Varela,
139 S. Ct. 1407 (2019) .......................................... 11
New Prime, Inc. v. Oliveira,
139 S. Ct. 532 (2019) .............................................. 3
Preston v. Ferrer,
552 U.S. 346 (2008) .......................................... 7, 10
Swanson v. H&R Block, Inc.,
475 F. Supp. 3d 967 (W.D. Mo. 2020) .......... passim

1
The brief in opposition rests heavily on this
Court’s denial of review over a year ago in the two
companion cases to Blair v. Rent-A-Center, Inc., 928
F.3d 819 (9th Cir. 2019). But Snarr has no persuasive
response to the two developments since that time that
underscore the need for review.1
First, Snarr does not deny that a federal court has
now reached the opposite outcome from the decision
below on the “same arbitration clause.” Swanson v.
H&R Block, Inc., 475 F. Supp. 3d 967, 978 (W.D. Mo.
2020). Snarr’s protest that Swanson is not an appellate decision is a red herring. The decision demonstrates, at minimum, that there are serious questions
about whether the Ninth Circuit’s decisions are fundamentally incompatible with the FAA and this
Court’s precedents. This Court has repeatedly granted
review in similar circumstances, including in AT&T
Mobility LLC v. Concepcion, 563 U.S. 333 (2011).
Snarr says little in response to petitioners’ showing that a conflict is unlikely to deepen. Snarr responds that a party could appeal a district court order
staying litigation after the arbitration is complete,
pointing to a handful of appeals from the past two decades arising from final judgments after arbitration.
Opp. 14. But that only proves that such appeals are
vanishingly rare. And none of those cases involved the
powerful incentives for forum-shopping present here,
in which plaintiffs’ lawyers can prevent the conflict
from extending beyond Swanson by suing in courts
within the Ninth Circuit. See Pet. 11-12. Snarr’s failure to address these practical considerations is telling.
Snarr’s attempt to defend the decision below on
the merits is also unpersuasive. Snarr does not deny
1

The Petition’s Rule 29.6 Statement remains accurate.

2
that, under this Court’s holdings in Epic and Concepcion, the FAA prohibits States from conditioning enforcement of arbitration agreements on the availability of class-wide injunctions through class-action procedures. Opp. 23. And Snarr identifies no functional
difference between class-wide injunctions and injunctions “on behalf of the general public” under California law. Yet Snarr nonetheless asserts that arbitrations over whether to issue such a public injunction
look just like the type of “traditional individualized arbitration” protected by the FAA. Epic Sys. Corp. v.
Lewis, 138 S. Ct. 1621, 1623 (2018).
The primary basis for Snarr’s argument is that
the third parties for whom the public injunction is
sought are not formally joined as parties. But that distinction makes no sense, which is why the Swanson
court explained that “Plaintiff’s individual retention
of the suit does not vitiate McGill’s interference with
the FAA’s protection of individualized arbitration just
because other members of the putative class are not
formally joined as parties.” 475 F. Supp. 3d at 977-78.
Snarr does not dispute that the FAA would preempt a
state law conditioning enforcement of arbitration
agreements on inclusion of a provision permitting a
claimant to join five or ten similarly situated parties
into a single arbitration proceeding. A public-injunction proceeding assessing the propriety of injunctive
relief affecting thousands or millions of third parties
is much less individualized in any real-world sense,
and thus even more incompatible with the FAA.
Put simply, Snarr’s cramped reading of Epic and
Concepcion elevates form, ignores substance, and defies this Court’s directive that “like cases should generally be treated alike” under the FAA. Epic, 138 S.
Ct. at 1623.

3
Second, Snarr does not meaningfully confront the
practical importance of the issue presented. He
acknowledges that “large numbers of consumer plaintiffs” are including requests for injunctive relief under
California consumer statutes (Opp. 29) and does not
challenge petitioners’ showing that, since Blair, hundreds of plaintiffs have expressly alleged that they are
seeking public injunctive relief (Pet. 24 & App. D).
Snarr instead argues that the avalanche of such
claims does not matter because parties could agree to
arbitrate public-injunction claims or to carve them out
for parallel proceedings in court. But the same was
true in Concepcion: Under California’s Discover Bank
rule, parties could agree to class arbitration or to permit class actions to proceed in court. Yet this Court
saw that fact as part of the problem with California’s
rule, not a reason for denying review. Here, too, each
of the alternatives mandated by the regime Snarr advocates deprives the parties of the benefits of individualized arbitration protected by the FAA. See American Bankers Br. 18-22.
Finally, Snarr’s asserted vehicle problems are
baseless. The FAA preemption question was squarely
presented and decided below; there are no factual disputes bearing on the resolution of that question; and
the jurisdiction of this Court and of the lower courts is
uncontested. The fact that the parties are continuing
to dispute additional arbitration-related issues below
is no obstacle to review. This Court routinely grants
certiorari to resolve important questions that controlled the lower court’s decision notwithstanding a
party’s assertion that it may prevail on remand for a
different reason. See, e.g., New Prime, Inc. v. Oliveira,
139 S. Ct. 532, 543 (2019) (“[W]e granted review only
to resolve existing confusion about the application of

4
the [Federal] Arbitration Act, not to explore other potential avenues” for compelling arbitration, such as
under state law); Department of Transp. v. Association
of Am. R.R.s, 575 U.S. 43, 55-56 (2015) (leaving for remand alternative grounds).
The conflict between the decision below and this
Court’s FAA precedents on this important issue is
clear, and Snarr has not identified any sound reason
why this Court should decline review.
A. The Decision Below Defies This Court’s
FAA Precedents.
California’s insistence on the availability of a public injunction is just as inconsistent with the FAA as
its prior insistence on the availability of class actions.
Pet. 13-22; see American Bankers Br. 18-22.
Snarr responds that public injunctions should be
treated differently than class actions for purposes of
FAA preemption because (1) public injunctions do not
require formal joinder of absent parties; (2) California
describes the right to seek a public injunction as “substantive,” not procedural; and (3) complex individualized claims are subject to arbitration.
Each of these attempts to distinguish Epic and
Concepcion is meritless.
1. Snarr insists that the FAA preempts only statelaw rules that “would require multi-party or collective
procedures.” Opp. 22. For that reason, he asserts, the
Ninth Circuit’s preemption analysis does not depart
from Epic’s holding that the FAA protects arbitration
agreements “‘providing for individualized proceedings.’” Id. at 21 (quoting Epic, 138 S. Ct. at 1619).

5
But the word “proceedings” cannot bear the
weight Snarr places on it. There is nothing “individualized” about a public-injunction claim seeking relief
for tens of thousands or millions of third parties other
than the claimant.
Snarr and the Ninth Circuit reach the wrong answer on FAA preemption because they ask the wrong
question. Under Epic and Concepcion, “the relevant
inquiry is not whether the procedures at issue are exactly equivalent to class arbitration, but whether the
contract defense in question interferes with the FAA’s
protection of individualized arbitration.” Swanson,
475 F. Supp. 3d at 977.
Snarr also asserts that adjudication of a publicinjunction request does not have preclusive effect on
absent third parties. Opp. 23. But any lack of preclusive effect says nothing about whether the proceeding
is consistent with individualized arbitration.
To the extent it is relevant, the asserted lack of
preclusive effect makes public injunctions even less
suited to arbitration than class actions. Different
plaintiffs and their counsel could subject a defendant
to multiple public-injunction proceedings based on the
same underlying conduct, even if a defendant prevails
on the first plaintiff’s claim.
2. Snarr’s repeated assertion that the FAA has no
preemptive effect with respect to state “substantive”
rights (Opp. 16-18, 22-23, 25-26) misreads this Court’s
precedents.
Snarr depicts this Court’s statement that “States
cannot require a procedure that is inconsistent with
the FAA” as disavowing preemption of any state-law
rules labeled as substantive. Opp. 22 (quoting Concep-

6
cion, 563 U.S. at 351). But Concepcion rejected a substantive versus procedural distinction, reiterating
that the FAA’s policy favoring individual arbitration
applies “notwithstanding any state substantive or procedural policies to the contrary.” Concepcion, 563 U.S.
at 346 (emphasis added).
Whether characterized as “substantive” or “procedural,” a rule requiring that arbitration clauses permit a claimant to seek relief for large numbers of absent third parties “attack[s] (only) the individualized
nature of the arbitration proceedings.” Epic, 138 S. Ct.
at 1622. In other words, because McGill “mandates reclassification of available relief from one individual to
multiple (or in this case, millions) of people,” it “impermissibly targets one-on-one arbitration by restructuring the entire inquiry.” Swanson, 475 F. Supp. 3d
at 977.
Snarr is mistaken in invoking this Court’s precedents discussing an “effective-vindication” exception
to the enforcement of arbitration agreements. Opp.
16. That exception applies at most to federal statutory
rights, not to state ones. It is available only when “the
FAA’s mandate has been ‘overridden by a contrary
congressional command.’” American Express Co. v.
Italian Colors Restaurant, 570 U.S. 228, 233 (2013)
(emphasis added).
Indeed, even the dissent in American Express,
which would have read the exception more broadly
with respect to federal statutory claims, recognized
that “a state law * * * could not possibly implicate the
effective-vindication rule,” because “[w]e have no
earthly interest (quite the contrary) in vindicating [a
state] law” that is inconsistent with the FAA. 570 U.S.
at 252 (Kagan, J., dissenting). Snarr fails to

7
acknowledge either the majority or dissenting opinions in American Express on this point.
Snarr is similarly mistaken in seeking refuge
(Opp. 18 n.1) in the Court’s observation in Preston v.
Ferrer, 552 U.S. 346 (2008), that the plaintiff’s arbitration agreement “relinquishe[d] no substantive
rights * * * California law may accord him.” Id. at 359.
That comment merely described the nature of the
question presented. See ibid. The Court’s decision—
which predated American Express—did not address
whether the FAA requires the enforcement of arbitration agreements that waive certain state-law remedies, particularly remedies authorizing the claimant
to seek relief for the benefit of third parties.
Indeed, the cases on which Snarr relies involve
remedies to address a plaintiff’s own personal claim.
They give no hint that States can avoid the FAA, and
Concepcion, simply by declaring that individuals have
an unwaivable “substantive statutory remedy” (Opp.
23) to seek relief on behalf of others.
3. Snarr observes that antitrust, RICO, or securities claims are arbitrable. Opp. 24-26. But even for
these potentially complex one-on-one claims, the focus
remains on the individual’s claim. By contrast, Snarr
concedes (Opp. 4) that the sole purpose of a public injunction is to benefit third parties (see Pet. 6-7).
This fundamental shift in the focus of the proceeding from the claimant to third parties is what interferes with the “traditional individualized arbitration”
protected by the FAA—in precisely the same manner
as the shift from bilateral to class arbitration. Epic,
138 S. Ct. at 1623; see Swanson, 475 F. Supp. 3d at
976-77.

8
B. The Issue Is Tremendously Important.
Just as Snarr cannot distinguish Epic and Concepcion on the merits, his attempts to downplay the
importance of the issue only underscore that review is
just as urgently needed as in Concepcion.
1. As amici detail, McGill and Blair have impacted millions of consumer arbitration agreements in
California. American Bankers Br. 2, 5.
That is because, with increasing frequency, plaintiffs are tacking on public-injunction claims to consumer disputes. Hundreds of plaintiffs have expressly
sought public injunctive relief since Blair, and thousands more have sought some form of injunctive relief
for claims brought under California consumer law.
Pet. 24 & App. D. Contrary to Snarr’s suggestion that
it is difficult to “satisfy McGill’s detailed criteria” for
what counts as a public injunction (Opp. 28), the
Ninth Circuit and California intermediate appellate
courts have routinely applied McGill to avoid enforcing consumer arbitration agreements in whole or in
part. See Pet. 23 & n.6.
As a fallback, Snarr contends that companies can
“comply with McGill” by revising their arbitration
agreements, either to “allow[] arbitration of public-injunction claims” or to carve out “such claims” for “judicial proceedings.” Opp. 27.
But the same alternatives were available in Concepcion. See Pet. 26. And in Epic, the Court reiterated
that even though “in recent years some parties have
sometimes chosen to arbitrate on a classwide basis,”
that occasional party choice did not diminish “Concepcion’s essential insight” that “courts may not allow a
contract defense to reshape traditional individualized

9
arbitration by mandating classwide arbitration procedures without the parties’ consent.” 138 S. Ct. at 1623.
Snarr’s argument that companies can sever public-injunction requests for litigation in court fails to
respond to petitioners’ explanation that this is a stopgap measure to comply with Blair and McGill—not a
preference for separate litigation that deprives the
parties of the benefits of arbitration. Pet. 24-25; see
American Bankers Br. 22 n.24.
Indeed, in virtually every consumer case in California, such a company faces judicial litigation of a
public-injunction claim—or a fight over whether the
complaint truly seeks a public injunction—even if the
parties arbitrate the damages claims. The company
thus must endure the very burdens, expenses, and delays in court that arbitration was intended to avoid—
such as unrestricted discovery, plenary motion practice, and potentially multiple rounds of appeals. See
Concepcion, 563 U.S. at 348.
2. Snarr notes the absence of an appellate conflict.
Opp. 12-14. But he unpersuasively attempts to minimize the significance of the Swanson decision and ignores the practical obstacles that substantially diminish the prospect of a further conflict. See page 1, supra; Pet. 11-12.
After all, Blair and the decision below strongly encourage forum shopping to avoid future decisions like
Swanson. Companies doing business nationwide, like
H&R Block, will inevitably find themselves the targets of consumer lawsuits in California whenever
plaintiffs’ counsel can find a single California plaintiff
to assert a public-injunction request. See American
Bankers Br. 7 & n.6 (noting the financial incentives to
bring public-injunction claims).

10
In addition, this Court has not hesitated to grant
review in other arbitration cases when there is a shallow split or no split at all. E.g., Kindred Nursing Ctrs.
Ltd. P’Ship v. Clark, 137 S. Ct. 1421 (2017); Concepcion, 563 U.S. 333; Preston, 552 U.S. 346.
Kindred, like this case, involved a conflict between
the decision under review and federal district court
decisions confirming that the decision defied this
Court’s precedents. Pet. for Writ of Certiorari at 1819, Kindred, 2016 WL 3640709. And in Concepcion the
Court did not indicate that it granted review to resolve
a circuit split. See 563 U.S. at 338. It is far more likely
that the Court was persuaded that AT&T’s arbitration provision and others like it were “fully enforceable under the law of most States” but not in California,
resulting in “the kind of Balkanization that Congress
plainly intended to overcome when it enacted the
FAA.” Reply Brief for the Petitioner at 10, Concepcion,
2010 WL 1787380.
3. Finally, Snarr urges the Court to wait to review
the question presented until after an arbitrator or a
court awards a public injunction. Opp. 33. But the
stakes of a public injunction, like those of a Rule
23(b)(2) class action, make it highly unlikely that a
case will reach the Court in that posture. See Pet. 19.
Notably, Snarr does not cite a single example of a public injunction awarded in a litigated case in the years
since McGill was decided, and petitioners are aware
of none.
C. Snarr’s Asserted Vehicle Problems Are Illusory.
None of Snarr’s scattershot vehicle attacks undermines the appropriateness of this Court’s review.

11
First, Snarr notes that petitioners have also
sought to enforce the more recent arbitration agreement that Snarr accepted in 2020. Opp. 3, 15. That
agreement provides that to the extent McGill prevents enforcement of the agreement’s prohibition on
seeking relief affecting third parties, the public-injunction request is carved out for litigation in court
(even though the FAA should prevent States from
forcing H&R Block and other companies to create such
carve-outs). Pet. 25.
But the dispute over whether Snarr is bound by
his most recent arbitration agreement does not undermine the case for review. On the contrary, if the Court
concludes that the FAA preempts McGill, then (under
either agreement) any request for an injunction would
have to be arbitrated on an individualized basis rather
than litigated in court.
Second, Snarr observes that petitioners have
moved in the district court to dismiss his request for
injunctive relief as moot (Opp. 12, 15)—a motion he
has vigorously resisted. But as he acknowledges, the
court below saw no need to address the mootness issue, recognizing that “the issue did not go to Article
III jurisdiction over the case” as a whole. Id. at 11; Pet.
App. 6a. The same is true in this Court. The pending
motion does not affect this Court’s jurisdiction or present an obstacle to reviewing the preemption question
that controls the decision below. Cf. Lamps Plus, Inc.
v. Varela, 139 S. Ct. 1407, 1413 (2019) (granting review notwithstanding an objection to appellate jurisdiction). And a holding by this Court on FAA preemption would be binding precedent for all future cases,
affecting millions of consumer arbitration agreements
in California that similarly require individualized arbitration. See American Bankers Br. 2, 5.

12
Third, Snarr suggests that he might revive his argument that he is excused from arbitration because he
opted out of a subsequent arbitration agreement that
he entered into in 2019. Opp. 15. But the fact that
Snarr may raise an alternative objection to arbitration on remand is not a reason to deny review. See
page 1, supra. That is especially true here, including
because the argument is inconsistent with the text of
the opt-out provision.2

The opt out provides that “[i]f you opt out of this Agreement,
any prior arbitration agreement will remain in force and effect.”
Dkt. No. 27-19, § 11.1 (emphasis added). It is undisputed that
Snarr had 60 days to opt out of the earlier arbitration agreement
at issue in this appeal but did not do so. Pet. App. 26a; Dkt. No.
27-23.
2

13
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted.
CAROL A. HOGAN
Jones Day
77 W. Wacker, #3500
Chicago, IL 60601
(312) 269-4241

ARCHIS A. PARASHARAMI
Counsel of Record
DANIEL E. JONES
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
(202) 263-3000
aparasharami@
mayerbrown.com

Counsel for Petitioners
AUGUST 2021

